<html>
<title> - HEARING ON THE NOMINATION OF NICOLE R. NASON TO BE ADMINISTRATOR OF THE FEDERAL HIGHWAY ADMINISTRATION</title>
<body><pre>[Senate Hearing 116-3]
[From the U.S. Government Publishing Office]





                                                          S. Hrg. 116-3
 
                 HEARING ON THE NOMINATION OF NICOLE R.
                    NASON TO BE ADMINISTRATOR OF THE
                     FEDERAL HIGHWAY ADMINISTRATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 29, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                           _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
35-944 PDF                WASHINGTON : 2019             

        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            JANUARY 29, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                               WITNESSES

Mineta Hon. Norman, Former Secretary, U.S. Department of 
  Transportation.................................................     5
Nason, Nicole R., Nominated to be Administrator of the Federal 
  Highway Administration.........................................     7
    Prepared statement...........................................     9
    Responses to additional questions from:
        Senator Barrasso.........................................    11
        Senator Carper...........................................    12
        Senator Boozman..........................................    18
        Senator Cardin...........................................    19
        Senator Duckworth........................................    22
        Senator Gillibrand.......................................    24
        Senator Markey...........................................    26
    Response to an additional question from Senator Rounds.......    27
    Responses to additional questions from:
        Senator Sanders..........................................    27
        Senator Van Hollen.......................................    28
        Senator Whitehouse.......................................    29

                          ADDITIONAL MATERIAL

Letters of support for the nomination of Nicole R. Nason........144-172


HEARING ON THE NOMINATION OF NICOLE R. NASON TO BE ADMINISTRATOR OF THE 
                     FEDERAL HIGHWAY ADMINISTRATION

                              ----------                              


                       TUESDAY, JANUARY 29, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:07 a.m. in 
room 406, Dirksen Senate Building, Hon. John Barrasso (chairman 
of the committee) presiding.
    Present: Senators Barrasso, Capito, Braun, Rounds, 
Sullivan, Boozman, Ernst, Carper, Cardin, Whitehouse, 
Gillibrand, Booker, and Markey.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. I call this hearing to order.
    Today, we will consider the nomination of Nicole R. Nason 
to be the Administrator of the Federal Highway Administration 
at the U.S. Department of Transportation.
    Ms. Nason is well-qualified for this important post. She 
brings impressive, meaningful experience in Federal 
transportation policy to this critically important position. I 
applaud President Trump's nomination of such an accomplished 
and dedicated public servant.
    The Federal Highway Administration plays a central role in 
American mobility. The Administration is the lead Federal 
partner to State and local transportation programs that 
maintain and improve our Nation's roads, highways, and bridges.
    America's transportation infrastructure faces a lot of 
challenges. For far too long, the Federal Highway 
Administration has been without Senate-confirmed leadership. 
Moreover, the authorization of Federal highway programs will 
expire in September of next year.
    The Congressional Budget Office projects the Highway Trust 
Fund will become insolvent sometime in 2021. That is why we 
must work together in this committee to write and pass a 
bipartisan highway bill that upgrades America's roads and 
bridges in a fiscally responsible manner, and do it in this 
Congress.
    We successfully worked together to pass comprehensive, 
bipartisan water infrastructure legislation. Now let us come 
together to fix our highways, roads, and bridges. This 
legislation must address the needs of rural America, and well 
as urban America.
    Rural roads are vital to bringing raw materials and 
products from the heartland to urban centers. Federal highways 
like I-80 run coast to coast, bringing goods and services 
across America. This includes the stretch of I-80 in my home 
State of Wyoming.
    We must maintain and improve these highways in rural States 
to keep these vital arteries of commerce open. In addition, I 
strongly support the Federal highway program's current reliance 
on distributing funds by formula to the States. This is the 
best way to ensure that funding is transformed into projects 
quickly.
    The Federal Highway Administration will need a strong 
Administrator to work with Congress on the deployment, 
development, and implementation of highway infrastructure 
legislation. Nicole Nason is the right person for the job.
    During the Bush administration, Ms. Nason served as 
Administrator of the National Highway Traffic Safety 
Administration, the Department of Transportation's top road 
safety official. Prior to this role, she served as the 
Department of Transportation's Federal Highway Administration 
Administrator.
    On behalf of MADD, I wholeheartedly endorse her for this 
position.
    The Associated General Contractors of America said that she 
is a ``superb choice to fulfill FHWA's leadership role in 
improving mobility on our Nation's highways.'' As such, the 
Associated General Contractors of America urges the Senate to 
quickly confirm her nomination.
    The Governors Highway Safety Association said: ``Throughout 
her career, Ms. Nason has demonstrated a clear commitment to 
public service and, during her tenure as Administrator of the 
National Highway Traffic Safety Administration, a dedication to 
advancing highway safety.''
    Confirming her to be Administrator of the Federal Highway 
Administration will be an important step in supporting our 
Nation's highways, roads, and bridges. I urge my colleagues to 
work with me to get this done.
    I would now like to turn to the Ranking Member for his 
statement. Senator Carper.

           OPENING STATEMENT OF HON. THOMAS CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thank you, Mr. Chairman.
    It is my intent to place a hold on the nomination of Ms. 
Nason. Not really.
    Who are those old people sitting next to you? Are those 
your kids? Tell us your names.
    Senator Carper. First on the right.
    Ms. Abby Nason. I am Abby.
    Senator Carper. Hi, Abby.
    Ms. Alex Nason. I am Alex.
    Mr. Brady Nason. I am Brady.
    Senator Carper. Who is the big guy?
    Mr. David Nason. I am David.
    Senator Carper. I want to thank you guys for your 
willingness to share this woman with the rest of us. The battle 
ahead for her confirmation will be hard fought. I have a hunch 
she will kind of squeak through. We will see. It depends on how 
she does today.
    Ms. Nason, we want to thank you.
    It is great to see Norman. Many of us were pleased to 
previously serve with Norm in the House of Representatives 
years ago and as Secretary of the Interior, Secretary of 
Transportation and God knows what else. He is warmly loved in 
Delaware and on the Delmarva by the horseshoe crab population 
of our region. There was a sanctuary created and he helped it 
grow and did that to save the horseshoe crabs which have been 
around hundreds of millions of years it turns out.
    Ms. Nason, thank you for appearing before our committee 
this morning. We welcome you and your family here today. We 
welcome your nomination to lead the Federal Highway 
Administration.
    As my colleagues will recall, you are not the first person 
nominated by this Administration for this job. A fellow from 
Iowa DOT, the Director of Transportation, Director Paul 
Trambino, withdrew his name as a nominee because of the illness 
of his father. He wanted to spend the last weeks and months 
with his dad. He passed on this job in order to be able to do 
that. His family's misfortune opened this opportunity for you.
    It is interesting that when I was talking with you 
yesterday, you spoke about your own father and the impact his 
life, his misfortune with a terrible motorcycle accident, which 
sort of helped guide you in the end to safety advancements and 
now brings you before us today.
    It has now been more than 2 years since there has been an 
Administrator, the longest gap in leadership for the agency in 
more than 100 years, which was long before our Nation's 
InterState Highway System even came into existence, back when 
the Federal Highway Administration was known as the Bureau of 
Public Roads.
    I have long said that leadership is the key to the success 
of any organization. We have heard many times over the last 2 
years that the Trump Administration is eager to enact major 
infrastructure legislation and make significant investments in 
rebuilding our Country's roads, highways, bridges and transit 
systems.
    With that in mind, in my view, it is counterintuitive to 
have left vacant for such a long period of time such an 
important leadership role in the Federal Highway 
Administration, an agency with a critical infrastructure 
mission.
    I hope that the President's nomination of you, Ms. Nason, 
to be Administrator of the Federal Highway Administration is 
both evidence that the Trump Administration is aware of these 
organizational needs, and also a signal that the Administration 
is ready to work with Congress on reauthorizing our Nation's 
transportation programs.
    The Federal Highway Administration is the lead Federal 
agency that oversees more than 220,000 miles of our national 
highway system and some 145,000 bridges. Today, far too many of 
those roadways and bridges have been in use well beyond their 
original design and as we know, are in poor condition.
    Too many drivers, pedestrians and bicyclists put their 
lives at risk when they use our roadways. In 2017, 2 years ago, 
there were more than 37,000 fatalities on our Nation's 
roadways. For context, that is approximately the same number as 
the number of lives lost annually in our Country to gun 
violence.
    Too many Americans also lack access to reliable transit or 
safe places to walk or bike, or to charging stations for an 
electric vehicles or fueling stations for hydrogen. That means 
the many people in our Country who would like to reduce their 
carbon footprint may not have many real options to do so.
    Next year, the FAST Act, which provided 5 years of funding 
and policy certainty for our transportation sector, is set to 
expire. Congress must work now on reauthorizing our Federal 
surface transportation programs so that we can provide 
continued certainty for States, tribal communities and cities, 
while also addressing the opportunities and challenges facing 
our transportation sector today and in the years to come.
    We have a rapidly evolving transportation industry in which 
new tools, data and technology are disrupting traditional 
practices of planning, building, operating and using road 
infrastructure.
    As we know, our climate is changing. Our vehicles and 
travel patterns accelerate and exacerbate that change, while at 
the same time, increasingly extreme weather events and sea 
level rise wear down our transportation networks.
    In addition to these major policy concerns, we face another 
big problem. Our Highway Trust Fund is going broke. Last year, 
we spent almost $13 billion more from the Highway Trust Fund 
than we collected in revenues.
    I will say that again. Last year, we spent almost $13 
billion more from the Highway Trust Fund than we collected in 
revenues. Next year, that deficit will be even greater.
    To pay for the FAST Act for surface transportation, we took 
$70 billion from the General Fund and other programs at a time 
when our Federal budget deficit last year reached $750 billion. 
I believe we are on target to reach a Federal deficit for this 
year of $850 billion and may be next year as much as $1 
trillion.
    For the next 5-year transportation bill, we will need to 
find an additional $85 billion just to keep our programs at the 
current funding level. Despite spending more than we collect, 
we still are not even spending enough. The backlog of money 
needed to rehabilitate and improve highways and bridges has 
grown to $800 billion. Think about that, an $800 billion 
backlog.
    While we are thinking about that, let me conclude by saying 
that I hope Ms. Nason will prove to be a true partner to those 
of us here in Congress, one who will work with us from day one 
to address these and other challenges I just mentioned and 
other challenges in the months and years ahead.
    These challenges are great, but so are the opportunities. I 
am hopeful that Ms. Nason will prove to be the leader who is 
needed right now to find opportunity in adversity so that we 
can seize the day.
    Thank you.
    Senator Barrasso. Thank you very much, Senator Carper.
    We now have a special privilege in this committee to hear 
from one of the greats in American politics and history. Norm 
Mineta is here, the former Secretary of Transportation, with 20 
years in the House, Chairman of the Transportation Committee in 
the House, then Secretary of Commerce for Bill Clinton, and 
Secretary of Transportation for G.W. Bush.
    However, if you Google him, you get Norman Mineta and it 
says ``and Al Simpson.'' There is no way to avoid this linkage 
that began over seven decades ago as Boy Scouts in Cody, 
Wyoming written about recently in the Washington Post and CBS 
News did a wonderful story about you, your legacy and the 
friendship and our kinship with Wyoming.
    We are so privileged to have you joining us today.
    With this, I would like to ask you, Mr. Secretary, to 
please proceed.
    Senator Boozman. Mr. Chairman.
    Senator Barrasso. Senator Boozman.
    Senator Boozman. Could I also just voice the fact that I am 
so pleased to see you today and thank you for your service?
    You were so helpful to me when I was in the House when you 
were Secretary of Transportation, even before that. You gave me 
great advice. I think you truly are a model for what this place 
should be all about, working with both sides, trying to get 
results.
    The Secretary and one of my mentors, General Paul 
Hammerschmidt, were great friends. Again, thank you for your 
service. Thank you for helping so many of us in so many 
different ways. We appreciate you.
    Senator Barrasso. Mr. Secretary.

            STATEMENT OF HON. NORMAN MINETA, FORMER 
          SECRETARY, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Mineta. Mr. Chairman, I thank you for the honor of 
appearing before you this morning and permitting me to address 
you.
    It is a pleasure to see so many Senators and former 
colleagues with whom I have had the pleasure to work over the 
years.
    Thank you for this honor and privilege to speak on behalf 
of Nicole R. Nason, the nominee to be Federal Highway 
Administrator.
    I have known Nicole since 2003 when she came to the 
Department of Transportation to serve as our Assistant 
Secretary of Government Affairs. As Secretary of 
Transportation, I met with Nicole nearly every day to discuss 
legislative proposals and strategies.
    However, her counsel went far beyond legislative issues. 
She was a key member of my executive team and was one of the 
department's liaison's with the White House and the Office of 
Management and Budget.
    After 3 years as the Assistant Secretary, I recommended to 
President George W. Bush that she be nominated as DOT's 
National Highway Traffic Safety Administrator. She was 
unanimously confirmed by the Senate and served until 2008 as 
NHTSA Administrator.
    She successfully implemented numerous safety mandates and 
reporting requirements by SAFETEA-LU. During Nicole's tenure as 
NHTSA's Administrator, significant rulemakings were completed, 
including electronic stability control, side impact priorities 
protection and improvement in roof restraint, all because of 
her leadership skills.
    She also instituted a series of public meetings addressing 
topics such as the New Car Assessment Program, school bus 
safety, child safety seats, and use of ignition interlock 
devices. Many of these proposals originated from these meetings 
and were later enacted by the agency.
    I also turned to Nicole to represent the department and me 
internationally. She spoke at the United Nations in Geneva on 
``International Harmonization and Safety Regulations.'' She 
conducted an important bilateral with the Chinese government to 
prevent the sale of fraudulently made automobile tires.
    Nicole is an accomplished government executive, an 
experienced transportation leader and an individual with a high 
degree of personal integrity and character. Frankly, though, 
Mr. Chairman and members of the committee, there are several 
people that Nicole could have had appear before you to attest 
to her record and the proven attributes of her character.
    I responded very quickly to Nicole to appear on her behalf 
because I believe Nicole's nomination is an important 
opportunity for this Senate and this Nation. Because of the 
convergence of certain factors, Nicole's nomination transcends 
the usual confirmation of one more subcabinet executive.
    As this committee so well knows, I served in Congress for 
over 20 years. As recited by the Chairman, I was the Secretary 
of Commerce for a Democratic President and the Secretary of 
Transportation for a Republican President.
    In all three of these positions, the key to any success 
that I had was persistent advocacy in seeking bipartisan 
collaboration whenever and wherever I could find it. This 
committee has done remarkable work with those tools and 
succeeded where others could not. Last year, your outstanding 
bipartisan work regarding our Nation's water infrastructure was 
a true public policy achievement benefiting every American.
    As you know, our Nation's transportation infrastructure 
faces similar challenges at a time when bipartisanship can be a 
scarce commodity. I believe this committee has the opportunity 
once again to revive this essential practice of governance.
    As many experts and pundits have indicated, infrastructure 
legislation is one of the best opportunities where this can 
occur. Having Nicole R. Nason as Federal Highway Administrator 
will assist the committee and this Congress in achieving this 
national need. She will strive to find common ground on a 
bipartisan basis on which to achieve needed solutions.
    She will be relentless in seeking opportunities and in the 
critical work the Federal Highway Administration will perform 
in working with you. She is the right person at the right time 
for this position. I know she will not let you down.
    Mr. Chairman, because of that, I am grateful to Nicole for 
allowing me to appear before you and this committee to speak in 
support of her candidacy as Federal Highway Administrator.
    Thank you, Mr. Chairman. I would be very pleased to answer 
any questions the Senators may have with respect to her 
nomination.
    Senator Barrasso. Thank you so very much, Mr. Secretary. As 
you said, others could have appeared here to introduce her but 
certainly in the opinion of the Chair and the entire committee, 
none more distinguished and none more welcome than you. We are 
delighted to have you. You are welcome to stay for the rest of 
the hearing.
    Neither the Chair nor the committee has any questions for 
you but wish to wish you very well and you are always welcome 
to join us in this committee.
    Thank you so much, Mr. Secretary.
    Senator Carper. Mr. Secretary, before you leave, I leaned 
over while you were speaking and said to the Chairman, this 
Administration might contract you to come and speak. It might 
have more success than anything else I can think of.
    It is great to see you, my friend. God bless you.
    Senator Barrasso. Now we would like to welcome to the 
committee our nominee, Nicole Nason, the nominee to be the 
Administrator of the Federal Highway Administration. We are 
delighted to have you and congratulations on your nomination.
    I want to remind you that your full written testimony will 
be made a part of the record. We all look forward to hearing 
your testimony today.
    I know you have members of the family here if you would 
like to introduce them and additional introductions. When you 
are finished, please proceed with your testimony.

STATEMENT OF NICOLE R. NASON, NOMINATED TO BE ADMINISTRATOR OF 
               THE FEDERAL HIGHWAY ADMINISTRATION

    Ms. Nason. Mr. Chairman, Ranking Member Carper, members of 
the committee, thank you for the opportunity to appear before 
you today to be considered for the position of Administrator of 
the Federal Highway Administration, FHWA, at the Department of 
Transportation.
    If confirmed, I look forward to working with you to enable 
and empower the strengthening of a world-class highway system.
    I would like to thank President Trump and Secretary Chao 
for their confidence in my ability to serve in this critical 
role. I would also like to express my gratitude to Secretary 
Norman Mineta, not just for his appearance and his remarks 
today, but for his years of extraordinary service to our 
Country. His life story is incredible and he remains one of my 
personal heroes.
    I am pleased to have with me today my husband, David. You 
briefly met my son, Brady, aged 10; my daughter, Abby, aged 14; 
and my daughter, Alex, aged 17. I am grateful for their love 
and support always. Although I recognize that they get to miss 
school today for this, I would like to think they would come 
even on a Saturday.
    Mr. Chairman, Ranking Member Carper, as you are aware, I am 
currently serving as the Assistant Secretary for Administration 
at the State Department. My 1,900-plus employees and 
contractors at the A Bureau manage everything from logistics 
and shipping to building repairs to all departmental 
procurement.
    I love my position but my heart is in transportation 
policy. That is why I was so excited and privileged when 
President Trump and Secretary Chao invited me to return to my 
roots at the Department of Transportation as the Federal 
Highway Administrator.
    If confirmed, my first priority will be Secretary Chao's 
first priority, the safety of our transportation system. This 
focus unites the department across the modes and will remain 
top of mind for me always.
    Having served as Administrator of the National Highway 
Traffic Safety Administration and having spent several years on 
the National Board of Directors of Mothers Against Drunk 
Driving, I know the grim statistics all too well.
    In 2017, as the Senator noted, there were 37,133 people 
killed in motor vehicle crashes. This is an appalling number 
and I believe the only acceptable number is zero.
    If confirmed, I hope to focus particularly on pedestrian 
safety. I would like to work with State and local leaders and 
members of this body to improve pedestrian and cyclist safety 
by focusing on improved road design and targeting our most 
dangerous intersections.
    Second, if confirmed, I intend to work closely with my 
fellow administrators and colleagues at the DOT. I believe if 
we are to effectively respond to our serious transportation 
challenges, we need to work seamlessly.
    I intend to collaborate with my Federal colleagues in 
Washington, DC. and all of our State, local and tribal 
government partners to eliminate barriers to project delivery 
and timely success.
    For example, many new technologies cut across several modes 
and I will work with all of our partners on the development and 
safe integration of these technologies.
    Third, if I am confirmed, I intend to visit our teams in 
the field. I would like to go out and meet with State, local 
and tribal partners to personally see their concerns and hear 
their ideas.
    I learned while serving as NHTSA Administrator that it is 
important to get out of D.C. and understand the challenges 
firsthand.
    Finally, I am aware of the role FHWA will play in the 
reauthorization of surface transportation legislation as the 
Fixing America Surface Transportation Act will expire at the 
end of Fiscal Year 2020.
    I was proud part to play a part in helping shape SAFETEA-LU 
when I previously served at the department. I look forward to 
the prospect of working together on any legislative efforts. As 
this committee knows well, there is not a one size fits all 
solution.
    Mr. Chairman, as the daughter of a New York County 
motorcycle highway patrol officer, I grew up hearing about 
highway and vehicle safety. I clearly remember Dad's gruesome 
motorcycle crash while on the job and his extended recovery at 
home. His helmet with the crack in the back where his head 
smacked the pavement and knocked him unconscious was his gift 
to me when I was confirmed as NHTSA Administrator.
    If confirmed as FHWA Administrator, I will proudly display 
the helmet in that office as well. The helmet was his reminder 
that there is a person and a family behind all the statistics, 
a reminder that we can and should always strive to do more.
    Again, Mr. Chairman and Ranking Member Carper, thank you 
for allowing me to appear before you today. If confirmed, I 
commit to you that I will perform the role of FHWA 
Administrator with accountability to all stakeholders, 
especially the American public.
    I would be happy to answer any questions. Thank you.
    [The prepared statement of Ms. Nason follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Barrasso. Thank you for the incredible story of 
your father's commitment and service to the people of New York, 
the people of this Country, and you continuing his legacy and 
concern. We are grateful you are willing to take on this 
responsibility.
    There are a couple of questions that you will get from 
members here. We ask that you answer those. They will also 
maybe have some written questions afterward. I hope you would 
respond to the questions throughout the hearing and respond to 
the questions afterwards for the record.
    There are a couple of questions I have to ask as I do of 
all nominees on behalf of the committee.
    Do you agree, if confirmed, to appear before this committee 
or designated members of this committee and other appropriate 
committees of the Congress and to provide information subject 
to appropriate and necessary security protections with respect 
to your responsibilities?
    Ms. Nason. Yes, sir.
    Senator Barrasso. Do you agree to ensure that testimony, 
briefings, documents in electronic and other forms of 
information are provided to this committee and its staff and 
other appropriate committees in a timely manner?
    Ms. Nason. Yes, sir.
    Senator Barrasso. Do you know of any matters which you may 
or may not have disclosed that might place you in a conflict of 
interest if you are confirmed?
    Ms. Nason. No, Mr. Chairman.
    Senator Barrasso. Let me start with questions.
    As we mentioned, you previously served as the Administrator 
of the National Highway Traffic Safety Administration and were 
confirmed by the Senate. During your tenure as Administrator, 
what did you learn regarding the need for Federal policymakers 
to account for differences in priorities and circumstances 
among rural versus urban States? Obviously being from a rural 
area, how do you deal with that?
    Ms. Nason. Thank you, Mr. Chairman.
    At NHTSA during my tenure, we were very clear that there 
are unique needs of rural States and even rural communities. 
With my own State of New York, we always like to say not all of 
New York is Manhattan.
    There are unique needs where I grew up. Infrastructure 
failings, aging roads, egress concerns which compare to the 
challenges of New York City, congestion and other quality of 
life issues, so we tend to focus on messaging, on a rural 
versus urban center because they have different transportation 
concerns, different safety concerns. Tribal governments have 
different safety concerns.
    There is one thing we learned at NHTSA. We had a very 
specific example of advertisements we were running. We learned 
that you cannot take the same commercial, no matter how much 
time and money you may have spent in producing and packaging it 
and expect it to have the same impact around the Country. It 
will not.
    You have to know the specific challenges of those 
communities. That is something I think I can bring to FHWA if I 
am confirmed.
    Senator Barrasso. If confirmed, can we be assured that you 
will work diligently to make sure the Federal Highway 
Administration is sensitive to the concerns of rural States 
like Wyoming?
    Ms. Nason. Yes, of course.
    Senator Barrasso. Many States and others have appeared 
before this committee strongly supporting the distribution of 
highway funds by the formula we have set up. They have told us 
that adequate formula funding is important because it provides 
the flexibility needed to plan effectively and that it enables 
States to put funds to work faster, a key issue for the States.
    Do you agree that the existing formula programs do enable 
States to address their priorities more effectively and more 
expeditiously than trying to create new programs that are less 
well understood and would take time to establish?
    Ms. Nason. Yes, Mr. Chairman. Thank you.
    I think, from what I have heard and speaking with our 
partners from my experience at the State Department in the 
construction of embassies and consulates, what is most critical 
is the certainty in the funding stream.
    I think that is something that if I am confirmed, I would 
be happy to work with you and the members of the committee to 
make sure that States can plan, which I think is most 
essential.
    Senator Barrasso. You would also likely agree that there is 
unanimous consensus that transportation projects often take too 
long to complete and that we need to work together to find ways 
to further streamline the process while still protecting the 
environment.
    We have heard testimony before this committee that suggests 
one of the reasons that projects are significantly slowed down 
is too many agencies are required to take action to approve a 
single project.
    Instead of being done concurrently, they are being done 
consecutively. You have to wait for one and then another and 
another. How important is streamlining to timely project 
delivery and how can we best achieve it?
    Ms. Nason. I think streamlining, as you noted, is essential 
for helping resolve and making improvements more quickly. 
Having served as the NHTSA Administrator at a time when we were 
raising CAFE standards for the first time in many, many years, 
I can tell you it is a challenge even internally to bring 
everyone to the table and resolve interagency concerns.
    I think that is a role where FHWA can be quite helpful. If 
I am confirmed as FHWA Administrator, that is a leadership 
responsibility that I would like to take on.
    Senator Barrasso. We tend to be amazed at the power of 
innovation, vehicles coming onto the market right now that keep 
drivers from leaving their lanes, even hit the brakes in an 
emergency.
    Within the next decade, I think we are likely to see even 
greater advances in connected and autonomous vehicles. The 
innovations have the potential to provide significant safety 
and efficiency benefits, I think, to the traveling public.
    We had a discussion last night where people said, will I 
ever actually want to buy another car or will I just use a 
ride-sharing service for people living in major cities. What 
role should the Federal Highway Administration play in 
preparing our roadways and communities, both rural and urban, 
for the arrival of these new technologies?
    Ms. Nason. Thank you, Mr. Chairman.
    As I noted in my opening statement, I think it is going to 
be very important for modal administrators, all modal 
administrators at the Department of Transportation to work 
together and to share research and best data because many of 
these technologies cut across the modes in impact, NHTSA, but 
also Federal Motor Carrier and Federal Highways.
    If I am confirmed as Federal Highway Administration 
Administrator, I will work closely with my colleagues to make 
sure we are providing the best data and information to all of 
our partners.
    Senator Barrasso. Thank you and congratulations again.
    Ms. Nason. Thank you.
    Senator Barrasso. Senator Carper.
    Senator Carper. I would like to follow-up on the Chairman's 
question with respect to environmental streamlining. I would 
like to look a little bit at the Federal-State partnership as a 
recovering Governor. I would like to dwell a bit on safety.
    I want to start with climate change. My neighbor to my 
left, my Delmarva buddy, Senator Cardin, and we have another 
Maryland Senator here, Chris Van Hollen, who will join us later 
I suspect but we live in an area where the land is sinking and 
the seas are rising. In fact, Delaware is the lowest lying 
State in America. It is of great concern to us.
    I have a son in California. North of where he lives, they 
had these incredible wildfires in Oregon, Washington and 
Montana, much bigger than Delaware, if you can believe that. In 
Ellicott City, which Senator Cardin and Senator Van Hollen 
represent, as I recall they had two 500-year floods, two 1,000-
year floods within 20 months of each other.
    Some people think climate change is not real, it is 
esoteric. It is real. We see it every day. Our transportation 
system is a major source of greenhouse gas emissions. In fact, 
the greatest source of carbon is from our vehicles as it turns 
out today.
    Our transportation system is highly vulnerable to impact 
from extreme weather according to the National Climate 
Assessment report released by 13 Federal agencies across the 
Trump Administration. This is a quote of what they said: 
``Expected increases in the severity and frequency of heavy 
precipitation events will affect inland infrastructure in every 
region, including access to roads, the viability of bridges, 
and the safety of pipelines.''
    For my whole life, we have measured rainfall by inches. 
Now, we measure rainfall, in some instances, by the foot.
    As the Federal Highway Administrator, you are going to have 
an opportunity to influence highway roadway design, 
availability of vehicle charging and fueling infrastructure, 
and space for safe walking and bicycling.
    How will you use your leadership to address how our vehicle 
and travel patterns accelerate and exacerbate climate change? 
How would you propose to ensure that infrastructure is 
resilient to extreme weather?
    Ms. Nason. Thank you, Senator Carper.
    I wrote down what you said, ``Our roads are vulnerable to 
extreme weather.'' Having grown up on the very east end of Long 
Island, we lived through hurricanes regularly and our roads 
would flood. Then there is no egress and often there is no 
second egress because there was a ferry. That is not an option 
either.
    I spent my life watching my father, as a first responder, 
go out in extreme weather and help respond to these challenges, 
particularly on our roads when peoples' instinct is to get in a 
car and try to drive away and then they are trapped.
    I am very interested in seeing what the Federal Highway 
Administration can do to improve resiliency in our 
transportation system as a whole. I think there is a lot of 
good research and data that FHWA can provide to State and local 
governments and the leadership role that FHWA can play.
    If confirmed, I would be happy to work with you on those 
issues.
    Senator Carper. Let us talk a bit more about environmental 
streamlining. The Chairman touched on it.
    This Administration finally filled a number of key 
positions within the Administration that deal with 
streamlining. For the first I would say almost year and a half 
of this Administration, people responsible for dealing with 
streamlining and working to facilitate building of roads, 
highways, bridges, those positions were not filled. I am told 
by my staff that as of the beginning of this year, most of them 
have been filled.
    One of the greatest holdups in moving projects has been the 
lack of people in the right positions. I think that has been 
dealt with and that is good.
    This committee has provided numerous streamlining measures 
in both MAP-21 in 2012 and the FAST Act, two major 
transportation reauthorization bills, the latter was in 2015. 
Many of these new authorities were only just finalized in 
Federal Highway Administration regulations just a couple months 
ago, as you may know.
    If you are confirmed, will you commit to providing our 
committee with updates on how these streamlining measures are 
having an impact on project timelines and performance of how 
the FHWA is ensuring that environmental outcomes are being 
protected and improved?
    Ms. Nason. Yes, Senator Carper. I know there were many new, 
interesting proposals in MAP-21 and FAST for environmental 
streamlining that FHWA is working to administer. If I am 
confirmed, I will provide you with an update.
    Senator Carper. I will just say this and close.
    It sounds like we have the right people in place within 
this Administration to do a better job on environmental 
streamlining. We have spent a lot of time, energy and effort in 
this committee in the last half a dozen years or more writing 
legislation focused on environmental streamlining.
    We need to find out what is working. We are going to count 
on you to tell us what is working and maybe what is not.
    Thank you very much.
    Ms. Nason. Yes, sir. Thank you.
    Senator Barrasso. Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Secretary Mineta. It is nice to see you again.
    I want to thank you for your willingness to serve the 
public, for your career at NHTSA and also at the State 
Department. That demonstrates that you are unquestionably 
qualified for the position.
    I would like to thank your daughter, Alex, for her great 
studied decision to be attending my alma mater, Duke University 
next year. Obviously you are going in the right direction.
    In our meeting, thank you for coming to our office, we 
discussed that the position you are up for is so important to 
all of us because it helps us interact with all of our 
constituents. We get a lot of constituent issues around 
transportation issues, small ones and large ones.
    As you know, in West Virginia, we have Corridor H which is 
the last section of the Appalachian Development Highway System 
that needs to be completed. Because of the way we have treated 
the Appalachian Development Highway System, it is now funded 
out of the Highway Trust Fund.
    I just wanted a commitment from you, we talked about it, 
that you would move forward with me to try to find the easiest 
and best way, most efficient way, to complete that Corridor H 
part of that system.
    Ms. Nason. Yes, Senator. Of course I know how passionate 
you are about that. I would be pleased to work with you.
    Senator Capito. Thank you.
    By the way, Secretary Chao is fantastic, as you know. You 
will have a great leader at that department.
    The one question I get a lot is can you do an 
infrastructure package outside of the highway bill, a 
bipartisan infrastructure package. I think all of us would like 
to do it but there are a whole lot of deep questions.
    One of the questions was the funding issue when it came 
forward over the last Congress. One of the things that the 
Administration asked for was to get in the game, what private 
moneys can be acquired or what kind of State dollars?
    I would just like to tout my own State of West Virginia 
which passed a $1.5 billion bond called the campaign, not by 
the Governor but by others, FTDR, Fix the----Roads, because 
people are very passionate about the safety aspects and are on 
the roads in rural areas all the time.
    As we are thinking about this, it was obvious that we were 
going to be able to use that new State share as part of our 
match. I want to put that in your hat as you move forward that 
any proposal, I think, has to look at what the States are 
willing to do, what kind of skin in the game States are going 
to have and hopefully, we can elongate that timeline a little 
bit to go back to the past to scoop up some of these projects 
like our State that move forward with that.
    I would like to ask you if we could work together on that 
as we are developing hopefully the infrastructure package, but 
also the highway bill as well?
    Ms. Nason. Yes, of course, Senator, I would be pleased to 
work with you.
    Senator Capito. Thank you.
    Both Senators talked about streamlining in the permitting 
process. One of the things that as we see particularly rural 
States falling behind in the deployment of rural broadband, one 
of the ways I think we are able to kind of make it more 
affordable is the dig once proposition, working with the 
Department of Transportation.
    We were on a bill last year, Senator Hatch had a bill, the 
Highway Right of Way Permitting Efficiency Act. We can work 
with the Department of Transportation, with the FCC, with the 
States, broadband councils and others to be able, while you are 
digging and while you are improving a highway, either new or 
maintaining, you can also use that as a way to run the high 
efficiency broadband into these rural areas that if left to 
their own devices, it is extremely expensive.
    I do not know if this is something you have actually 
thought about. I know it is probably premature but do you have 
any thoughts on that?
    Ms. Nason. Senator, I appreciate the question because we do 
spend time at the State Department talking about IG. As you 
know, it is not just 3G plus 2. It is a game changer so I think 
there may be interesting opportunities to save time and money 
for States.
    I would be happy to work with you on this if I am 
confirmed.
    Senator Capito. Yes, it just seems as though we get it our 
own way on something like this that is really not 
controversial. It is not controversial. Actually, I ran into a 
Federal Highway project that actually did provide the channel 
for the high speed Internet, although there is the cabling and 
everything but there was nothing in there. It was prepared for 
it so when and if, it is already ready and it saves a lot of 
money.
    In terms of the safety issues, you mentioned pedestrian and 
cyclist safety. You mentioned congestion at intersections. I 
have read several stories here in D.C. with some very tragic 
outcomes of pedestrian safety.
    Do you have any thoughts? Is it educating the American 
public; is it making signaling better? Is it the driver or is 
it all the above? What perspectives might you have on that?
    Ms. Nason. Senator Capito, thank you.
    I think it is all of the above so we always talk about the 
ease. We need to educate, we need to enforce, but we also need 
to engineer better. That is a piece where I think Federal 
Highway could provide some very valuable information and data. 
It would be something I could work on with my colleagues at 
NHTSA and in the department to see what improvements we could 
make.
    Senator Capito. I would really encourage you there because 
that to me is just so preventable and the results of tragedies.
    Thank you. Good luck. I plan on supporting you.
    Ms. Nason. Thank you.
    Senator Capito. Good luck at Duke.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Ms. Nason, thank you. Thank you for your willingness to 
serve and we thank your family because this is a family 
sacrifice. Thank you all very much for sharing your loved one 
with the government. We appreciate it.
    To Norm Mineta, it is great to see you. I had the 
opportunity to serve with Congressman Mineta and see his talent 
as chairman of our committee. I know his reputation as Mayor of 
San Jose and really a mentor to many of us that are serving 
today. Norm, thank you for your extraordinary leadership.
    You have a really good person introducing you. That was a 
smart decision you made.
    Ms. Nason. My secret weapon.
    Senator Cardin. Yes. It was the right thing to do.
    I really want to underscore what the Chairman said about 
this committee being able to work in a bipartisan manner to 
produce a strong bill. We did that with water and we want to do 
that with the reauthorization of surface transportation and 
perhaps other infrastructure bills.
    However, we are going to need your help because, as you 
said, you want predictable funding for transportation. I think 
this committee would like to make sure that we have long term 
predictability, so the longer term the reauthorization, the 
better it is for local governments that depend upon projects 
that go for multiple years to have the Federal partnership 
understood.
    It has to be adequate funding. That is going to be the real 
challenge. There are Democrats and Republicans who want to work 
together, who want to come up with a bipartisan plan but it is 
going to take your work with us in order to give us a path 
forward so we can accomplish those goals. Are you ready for 
that?
    Ms. Nason. I am ready for those, interesting conversations.
    Senator Cardin. I thank you.
    I want to follow-up on Senator Capito's point and your 
point on bicycle and pedestrian safety because we do have a 
program under the FAST Act that helps the TAP Program, the 
Transportation Alternative Program, which are funds that go to 
the local governments, the county governments so that they can 
plan in their community to try to protect pedestrians and the 
bicyclists by using a small amount of money for paths, trails 
and those types of issues. This is a bipartisan commitment to 
establish that program.
    As we work toward the reauthorization, will you work with 
us to see whether we can perhaps strengthen that program so 
that we can reduce the growing number of fatalities with 
bicyclists and pedestrians, so we can work to try to deal with 
that using the existing tool of the Transportation Alternative 
Programs, perhaps enhancing that?
    Ms. Nason. Yes, Senator Cardin. If I am confirmed as 
Federal Highway Administrator, I would very much like to work 
with you and your staff to see what enhancements we can make to 
already existing programs.
    Senator Cardin. I appreciate that. I think this is a 
program that does work. The challenge, of course, is it is a 
little bit unusual because first of all, the money goes 
directly to the local government and bypasses the States which 
they do not always like.
    Second, of course, it is for local enhancements which, at 
times, get lost as we look at the challenges we have.
    I want to underscore the point that Senator Carper made in 
regard to climate change and resiliency. It is a major 
challenge we have, a major challenge in maintaining our 
existing transportation infrastructure as we look for new but 
it also recognizes we have to do things in a smarter way in 
order for public investments to have its maximum advantage.
    Are you prepared to work with us based upon what science is 
telling us so that our infrastructure investments are done in 
the best way, recognizing that these extreme weather conditions 
are becoming more frequent?
    Ms. Nason. Yes, Senator. I think Federal Highway could be a 
center of excellence for collection of good data and research. 
I would be pleased to work with you if I am confirmed.
    Senator Cardin. I want to talk about the multimodal 
concepts. It took me a shade under 2 hours to get here today 
from Baltimore. That is a good time. It usually takes me longer 
than that. A commute that should be 45 minutes usually takes me 
about 2 hours and 15 minutes. I think it was the weather 
forecast that kept some people off the roads today so I made it 
a little bit faster.
    We live in the worst congested area in the Country. We 
really need to invest in multimodal. We have to get people out 
of cars into transit. We need to deal with the issues of the 
commuter rails. We have to deal with all of the above.
    Are you prepared to use your leadership, if confirmed, so 
that we have a sensible, multimodal transportation commitment 
to be as friendly as we can to reduce congestion in the most 
environmentally friendly way?
    Ms. Nason. Yes, Senator. Peoples' transportation needs are 
diverse. There are a lot of factors that go into choosing how 
you get from one place to another from time to cost. I would be 
happy to work with you on those issues if I am confirmed.
    Senator Cardin. I appreciate that and I look forward to 
working with you.
    Thank you.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Braun.
    Senator Braun. Thank you.
    It was a pleasure meeting you the other day.
    I am from Indiana and we have a lot to address in 
infrastructure needs. You have to look forward. It is a very 
capital intensive thing. Our current budget and the condition 
it is in, where interest is dominating a big portion of it but 
mostly when it comes to the fact that we seem to be the least 
capable of taking on a big project like infrastructure across 
the Country just like we were in Indiana, to keep maintenance 
in line and actually do new stuff.
    Do you think it is realistic to maintain and 80-20 
traditional funding role to really accomplish what the Nation's 
needs would be?
    Ms. Nason. Thank you, Senator.
    As you and I discussed, Indiana has made some strong 
choices regarding investment. The question of match and how we 
are going to finance the next legislative proposal, whatever 
this committee chooses to do, is one that I do not think FHWA 
should dictate but be a part of the conversations because, as 
you know, what works in Indiana does not work in New York.
    I would be happy to work with you as we move forward on 
legislation to see whether we have the right balance.
    Senator Braun. Thank you.
    My personal opinion is we are going to have to come up with 
something new.
    In Indiana, we were creative. We did what was called a 
Community Crossings Program which was to challenge counties and 
cities to actually put skin in the game. Of course they 
universally complained about it in its formulation. They 
indicated that was the State's responsibility. All I can tell 
you is it has been an overwhelming success.
    Do you think that States that put more of their own skin in 
the game should receive some type of priority when it comes to 
Federal funds that are going to be increasingly scarce?
    Ms. Nason. I do think States which have demonstrated 
leadership are States that we can work closely with and learn 
from, how they were able to message and what their success was, 
certainly a State like Indiana.
    I would be happy to work with you on whatever changes this 
committee decides to make in the next legislation.
    Senator Braun. I would like to ask you to give some thought 
to how you think a similar dynamic might work because it is my 
opinion that if we are going to address infrastructure needs, 
it is going to take something different from what we have had 
leading up to this point.
    In general, on infrastructure, it is not only the condition 
of maintenance but there are so many new things that need to be 
done. In your opinion, when it comes to maintenance of roads 
and bridges, where do you think it really is on the Federal 
landscape?
    I can tell you when we looked at it in Indiana, probably 
back in 2015, almost half a percent of our roads and bridges 
were headed in the wrong direction. Until we basically doubled 
our stream of funding, we were going to let that trajectory 
continue.
    How are you sizing up the Federal picture? Is it similar to 
what we saw in Indiana or do you think maintenance is less of 
an issue and new construction might be the bigger challenge?
    Ms. Nason. I do think they are both important but I think 
maintenance is particularly critical. It is a place where 
Federal Highways can be very supportive and provide good 
information. They do condition and performance reports, for 
example, annually on the State of our bridges across the 
Country, not just State by State but how we are looking 
nationwide, where and how we need to invest. I think, if 
confirmed, Federal Highways has a lot of good information we 
can share with the Senators.
    Senator Braun. Very good.
    In summary of everything we talked about, please give 
thought and focus on how we get enterprising, responsible 
States to maybe have some preference when it comes to engaging 
and if they are willing to put more skin in the game that maybe 
they should get more of the scarce Federal dollars.
    Ms. Nason. Thank you.
    Senator Braun. Thank you. I yield.
    Senator Barrasso. Thank you very much, Senator Braun.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman.
    Welcome, Assistant Secretary Nason. We are glad to have you 
here.
    Secretary Chao appeared before this committee in May 2017. 
When she did, I asked her how sea level rise is affecting our 
coastal infrastructure. As you and I discussed in my office, 
Rhode Island has 400 miles of coast, and the measured sea level 
rise is a very serious and significant issue for us.
    The Secretary agreed to look into the issue, and I followed 
up with a letter to her that I would ask to be made a part of 
the record of the hearing.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Whitehouse. Before receiving the Secretary's formal 
response, we managed to get our hands on the draft response, 
the letter that the career staff sent up to the Secretary's 
office for her final approval. Then shortly after that, we got 
the letter from the Secretary's office.
    When you compare the two letters, you see some pretty 
significant, notable differences, which I have redlined here. 
One is that the phrase ``sea level rise'' here is struck out of 
the career letter and the word ``rise'' is replaced with 
``variations.'' The term ``variations'' implies wrongly that 
the sea level rise that we're seeing now in Rhode Island is 
consistent with natural changes over geologic time, when in 
fact, the current rise in sea levels is a direct consequence of 
human activity, of carbon pollution, and it is occurring at 
rates that humankind hasn't seen in thousands and thousands of 
years. And we actually measure this stuff at Naval Station 
Newport.
    So there is that change. Then down here, the political 
staff presumably of the Secretary's office, struck out 
``environmental conditions such as extreme weather events and 
climate change.'' Well, we live in Rhode Island, in a world of 
extreme weather events and climate change. I think we all do.
    So what worries me about this is that it looks like we are 
seeing political censoring for ideological purposes. And I 
think that the climate denial and the censoring and the 
nonsense has got to stop. We may have disagreements about what 
to do about climate change; we ought to be having a bipartisan 
discussion about solutions. But this business of just striking 
it out of letters so that it doesn't even come up, and we are 
not even allowed to talk about it, is ridiculous.
    So it forces me to ask you your assurance that you will not 
censor and ignore the facts and the science in the manner in 
which you go about your duties as a Federal Highway 
Administrator.
    Ms. Nason. Thank you, Senator Whitehouse. I am unfamiliar 
with this issue, and I haven't seen the letter.
    Senator Whitehouse. And I don't expect you to defend the 
letter or any of this. My point is that this is a continuing 
problem, dealing with this Administration. For those of us that 
have coastal infrastructure and that are coastal States, to 
have a Federal Highway Administrator who will pay attention to 
real facts and real science is a matter of importance.
    Ms. Nason. At NHTSA we always said, good data is king.
    Senator Whitehouse. Good.
    Ms. Nason. And I am a firm believer in good data, so I can 
commit to you that we will give you the best possible 
information. I also wrote down the words political retaliation. 
That is not something that I have ever accepted, either at the 
State Department or at NHTSA. I have never seen any indications 
of that, but I can assure you I would not support having staff 
feel intimidated for any reason.
    Senator Whitehouse. Good. One of the reasons that this is 
important is this Providence Journal headline from just a few 
days ago, Climate Change: Washed Away, Home Values Lost to 
Rising Sea Levels. What the study that formed the basis for 
this front page above-thefold article in my home State 
newspaper shows is that Rhode Island has lost nearly $45 
million in home appreciation values between 2005 and 2017.
    It is the Rhode Island part of a study that began in 
Florida and went up the coast through New Jersey. It hit 
Massachusetts, so when it hit Rhode Island, so Senator Markey 
had the same study now. If you lokao t all the different States 
that have been reviewed in this what was originally a peer-
reviewed study in Florida, and has moved, the same methodology, 
to cover other States, there is a total of $15 billion lost in 
coastal home values.
    That is a big deal for these families and businesses. And 
it can't be ignored. They are not alone. If you go on to look 
at their report, pull up the other one, here is what one of the 
authors of the report said: ``Each time we analyze a new State, 
we see the same phenomenon. Increased tidal flooding leads to a 
loss in home value appreciation. As sea level rise accelerates, 
we expect a corresponding loss in relative home value to 
accelerate as well.''
    I can't ignore that. And I can't allow Administration 
agencies to ignore that, either.
    Go on to Freddie Mac. Freddie Mac is not an environmental 
organization, it is not a green organization, it is not a 
Democrat organization. It is a housing organization. And what 
Freddie Mac has warned is that rising sea levels and spreading 
flood plains appear likely to destroy billions of dollars in 
property and to displace millions of people. The economic 
losses and social disruption may happen gradually, but they are 
likely to be greater in total than those experienced in the 
housing crisis and great recession.
    I just want to make those points, because it shows how 
important it is to us to be getting fair and factual and 
properly based scientific determinations out of our Federal 
agencies. Because this stuff is serious and it is big and it is 
coming at us.
    Thank you to the Chairman for letting me go over my time.
    Senator Barrasso. Thank you very much, Senator Whitehouse.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    Ms. Nason, welcome. Thank you for your service.
    I was looking at your bio. You might not know this, but are 
you the first potential Administrator of the Federal Highway 
Administration who is a black belt in karate?
    Ms. Nason. You know, I don't know if they keep that 
statistic. I might be.
    [Laughter.]
    Senator Sullivan. I just through that was interesting.
    Senator Barrasso. I would point out she is the first one 
that actually has a TED Talk online of talking about her and 
showing in action her black belt abilities.
    Senator Sullivan. So if you ever have any issues with 
Senator Whitehouse.
    [Laughter.]
    Senator Whitehouse. I yield without the necessity of any 
application of force.
    [Laughter.]
    Senator Sullivan. Just thought I might warn him. You have 
to be careful with her.
    Anyway, listen, I wanted to talk briefly about another area 
where States lose money, and I think it is really important. 
That relates to permitting time lines. Particularly 
infrastructure time lines.
    My State, the great State of Alaska, is kind of ground zero 
on groups that like to delay and slow and shut down any kind of 
infrastructure. We are very resource-rich State, but 
infrastructure-poor State, almost 10,000 miles of roads, which 
probably is not much more than a lot smaller States in our 
Country.
    So what we have experienced, let me just give you a couple 
of examples. The King Cove Road, that is a road on the Aleutian 
Island chain, the Trump Administration finally approved that. 
That took about maybe 30 years, 12 miles. A twelve-mile road, 
dirt road. Took almost 20 years to permit a gold mine in 
Alaska, because of litigation. By the way, it is the Kensington 
Mine, it employs almost 400 people at an average wage of 
$100,000. But 20 years of fighting and ridiculous delays on 
that.
    Took 7 years to permit an exploration well in Alaska, and 
$7 billion. Shell tried to do that and the last Administration 
made sure that it almost took a decade. It takes on average in 
America 7 years to permit a bridge. Took over 8 years, almost a 
decade, to permit the Keystone Pipeline.
    This is just ridiculous, and it hurts States, it hurts 
average citizens. It hurts the Country. I guarantee it doesn't 
take 19 years on average to go from permitting a highway, your 
job, to completion. Nine to 19 years. I don't think China 
permits roads in a two-decade time period.
    So can I get your commitment to work with this 
Administration? I do think it is a bipartisan issue, by the 
way. I don't think my colleagues on the other side of the aisle 
think 20 years to permit a highway is a good idea. Can I get 
your commitment to work with this committee on permitting 
reform in a way that makes sense for the average American? This 
is not a partisan issue. Seven years to permit a bridge is 
madness.
    Ms. Nason. Yes, Senator, I would be happy to work with you 
and members of the committee.
    Senator Sullivan. I have a bill called the Rebuild America 
Now Act. It looks at common-sense permitting reforms, 
particularly for infrastructure and highways, to do what most 
Americans want, which is not cut corners on the environment, 
but not take a decade to permit a piece of infrastructure. Can 
I get your commitment to work with me and this committee on 
those issues?
    Ms. Nason. Yes, Senator, I would be pleased to review that 
legislation and work with you.
    Senator Sullivan. Let me ask, I also want to get your 
commitment to come to Alaska. Like I said, we have a lot of 
unique challenges in my State, some of which relate to 
permitting. There are certain groups that usually don't live in 
my State that want to make sure you can't build a road in 
Alaska, even though most States and communities can build 
roads. They seem to want to make sure we can't build roads.
    But one of the things, the FHWA recently put out a guidance 
memo that I would like to sit down with you and discuss a 
little bit more. It significantly shortens the time line on 
when the construction projects and seasons close. As you might 
know, in Alaska, we have a really short construction season 
relative to any other State because of our long winters. So can 
I get a commitment from you to work with me just on some of the 
elements of that memo? Just because I don't think it looks at 
unique aspects of different States, particularly different 
construction time lines.
    Ms. Nason. Senator, first of all, I haven't' been to Alaska 
in many years. I would be pleased to go, with you and your 
staff.
    Senator Sullivan. Good. Great. We would love to host you 
there.
    Ms. Nason. Always a beautiful trip.
    Senator Sullivan. Good. And then finally, just if you 
haven't, and I am running out of time here, but your vision, I 
know you laid it out in your opening statement, but can you 
list very quickly your top three priorities on what you want to 
get done as the Administrator?
    Ms. Nason. Sure. Thank you, Senator.
    I would like to focus, of course, on safety. But I am 
particularly interested in pedestrian and cyclist safety, which 
was an issue I didn't get to spend that much time on at NHTSA. 
We had so many congressional mandates that we were trying to 
implement. So that is something I would like to go back to, and 
I think Federal Highways can be very important there.
    I also think there is a lot of interesting new technologies 
that are very cross-cutting across the modes. So I would like 
to work with my fellow modal administrators to see what the 
advantages and disadvantages of these new technologies are and 
how can we implement them safely.
    Third, I would like to travel. I would like to go and meet 
people where they are. That was very important at NHTSA, to go 
and visit communities locally, instead of bringing everyone to 
Washington, to hear first-hand about the challenges they are 
facing. So that would be something I would like to work on.
    Senator Sullivan. Great. Thank you very much. Thank you, 
Mr. Chairman.
    Senator Barrasso. Thank you, Senator Sullivan. Senator 
Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Cape Cod, economic pillar, Massachusetts, recreational 
oasis. But only accessible by, on land, by two bridges build in 
the 1930's by the Army Corps of Engineers. They are 
deteriorating and we are going to need some help in order to 
make sure that we have, in the 21st century, as good a system 
as we had in the 20th century. The Army Corps owns the bridges. 
It is currently conducting a study to evaluate options for 
replacing the bridge, which could cost up to $600 million. The 
Army Corps' entire budget is only $6 billion a year that they 
have to use to support every one of their programs.
    So we are going to be in a process of talking to the Army 
Corps, which we are already about this. And as we talk about a 
surface transportation bill, which the Chairman is talking 
about bringing through this committee, I am going to be 
fighting to make sure the Federal Highway Administration has 
the resources and the authorities it needs to help replace 
these bridges.
    Would you commit to work with me on this very complex 
project?
    Ms. Nason. Yes, Senator Markey. As you know, I am in 
Connecticut. I have friends who leave for Cape Cod at 2 in the 
morning so they can avoid the traffic, so I would be happy to 
work with you on that.
    Senator Markey. Excellent. So you are an expert on this.
    Ms. Nason. I have never been stuck on the bridge.
    Senator Markey. Yes. Mark Twain used to say an expert is 
anyone who lives more than 200 miles away from the problem. So 
people now have to anticipate getting up at 2, knowing that 
there is a problem they are going to have to deal with when 
they hit those bridges at Cape Cod.
    Senator Whitehouse has already talked about the impacts of 
climate change on our highway system. What I would ask from you 
is that you would work with us to encourage transportation 
planning organizations to reduce vehicle miles traveled, curb 
greenhouse gas emissions when using Federal funding for highway 
projects. Can you make that commitment to us?
    Ms. Nason. Yes.
    Senator Markey. Thank you. Next, we have an increasing 
problem, again related to climate change, because it clearly is 
having an impact on the ability for people even to escape. We 
have seen that in Hurricane Harvey, Irma, Maria, western 
wildfires, flooding in the Midwest, to name a few. The Federal 
Highway Administration has found that many of the Nation's 
critical mass evacuation routes face a series of impediments, 
including evacuation planning equipment acquisition, resiliency 
and capacity. Would you support providing more resources to 
State and local governments to improve the ability of people to 
get out of harm's way?
    Ms. Nason. Again, Senator, having grown up on the very east 
end of Long Island and been stuck, and being the daughter of a 
first responder, I understand how frightening it is for people 
when they are trapped during any kind of catastrophic weather 
event. So I would be pleased to work with you, if I am 
confirmed, to make sure that are building greater resiliency 
into our system.
    Senator Markey. I am going to re-introduce my ESCAPE Act, 
Enhancing the Strength and Capacity of America's Primary 
Evacuation Routes, as legislation. I would love to work with 
you on that as we are moving with the Surface Transportation 
Bill, which the committee is going to be considering.
    Then finally, it is on cybersecurity, it is on the issue of 
the connected car era that is about to dramatically expand. We 
already have it, but it is going to be on steroids. Every 
vehicle will be a computer on wheels, and gathering massive 
amounts of data about each and every person, each and every 
family, each and every child in those vehicles. Everything that 
they are doing is going to be inside of a data base.
    But it will also be gathered because there will be a 
digitization of the roads, bridges, other transportation 
infrastructure. So I want to work with you on the issue of 
cybersecurity as we are now planning in the next generation, 
the 21st generation of all of this infrastructure. Because this 
information, historically, has just been within the family. 
Now, the government will have access to it as well. Could you 
talk about that a little bit?
    Ms. Nason. Senator Markey, we spend, as the Assistant 
Secretary for Administration at the State Department, as you 
know, State spends a great deal of time talking about 
cybersecurity, more in closed briefings than open. But it is an 
issue that as the chief procurement officer, the whole 
procurement team is spending more and more time on thinking 
about, where is our tech coming from, who are the providers who 
are supporting it, what data is it collecting, where is it 
being stored. So I would be pleased to work with you on that.
    Senator Markey. Great. So on the one hand we don't want 
FHWA to be compromising the privacy, but we also don't want our 
own Federal Government to be compromising the information of 
people as they innocently are driving the roads and bridges of 
our Country. It should be their business, not the business of 
the Federal highway Administration. So I want to work with you 
on that as well. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Markey. Senator 
Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman. Thank you for 
this hearing, thank you for your testimony.
    Ms. Nason, the construction of the highway system remains 
one of the most transformative achievements in our Nation's 
history. While these highways connected cities and towns from 
coast to coast and to the global market, the construction of 
this system too often destroyed communities, particularly 
minority communities.
    I have seen first hand in my State where Robert Moses 
steamrolled historic neighborhoods in order to build highways 
that served commuters, often at the expense of those who lived 
there. InterState 81 cut through neighborhoods in Syracuse, 
severing residents from the broader community and limiting 
their economic opportunity.
    The I-81 viaduct through downtown Syracuse is now past its 
useful life and the State is studying options for replacement. 
After conversations with community stakeholders in Syracuse, I 
have voiced my support for the construction of a street-level 
community grid to replace the elevated portion of I-81 as a way 
to revitalize all of Syracuse's downtown and connect all of the 
community to opportunity. Communities across our Country face 
similar decisions as our infrastructure continues to age.
    This creates real opportunity to learn from the mistakes of 
the past and reimagine how we build a transportation 
infrastructure to be more equitable. What role should the 
Federal Government play in addressing the past Federal Highway 
projects that marginalize some communities, especially minority 
communities?
    Ms. Nason. Thank you, Senator Gillibrand. As a New Yorker, 
I certainly know who Robert Moses was. I have been stuck on 
that parkway.
    I agree that the system was transformative. I think Federal 
Highways is in a place where, not to dictate to State and local 
governments, but to make sure that we are working with MPOs and 
State and locals that are planning for connectivity of all 
communities, and to help provide good information and the best 
data possible, so that States and local and tribal governments 
can make better decisions about making sure that all 
communities are connected and benefited.
    Senator Gillibrand. That sounds good. What do you think the 
Nation can do to prioritize economic and environmental justice 
in our transportation planning?
    Ms. Nason. I don't want to overState Federal Highways' 
role. But I do think there are many ways that we can work with 
our partners, associations, MPOs and others, to make sure that 
we are thinking through and we are asking some of these tough 
questions of State and local governments, and to make sure that 
they are thinking through all of the challenges.
    Senator Gillibrand. Thank you. Different topic. Truck 
underrides are a major cause of death and injury on our 
Nation's Federal highways. Last year, the National Sheriff's 
Association was the first law enforcement organization to 
endorse the Stop Underrides Act, a bipartisan bill. They 
endorsed this bill because day in and day out, the witness the 
aftermath of underride crashes and have experienced the loss of 
their fellow law enforcement officers in these accidents.
    First responders know that their own safety and the safety 
of the public that they serve continues to be put needlessly at 
risk every day because we don't have effective and 
comprehensive truck underride protection. Drawing on your 
experience from NHTSA, do you believe it is necessary to update 
the 1998 USDOT rulemaking to require stronger performance 
standards for rear underride guards?
    Ms. Nason. Senator, I know there was a horrific crash in 
upState New York. And putting on my NHTSA hat for a minute, I 
can say that we are always interested in knowing if there is 
better data.
    Senator Gillibrand. Right.
    Ms. Nason. And reviewing and updating standards, I believe 
IHS has some new information that they might be able to share 
and provide additional information that Federal Highways, again 
as I noted in my opening statement, I hope to work very closely 
with the NHTSA Administrator, with Federal Motor Carriers.
    Senator Gillibrand. I would like to work with you to make 
sure we get better data collection, and we can do a more 
comprehensive solution to this urgent crisis.
    Ms. Nason. Sure.
    Senator Gillibrand. Similarly, last October, 20 people died 
in a horrific limousine crash in Scoharie, New York, making it 
the deadliest transportation accident in the United States in 9 
years. Since the accident, many concerns have been raised about 
the safety of stretch limousines, and the loopholes in our 
Federal safety laws that result in lower occupant safety 
standards for these vehicles, relative to other vehicles on the 
road.
    Additionally, this accident occurred at a notoriously 
dangerous intersection on New York State Route 30. If 
confirmed, will you work with States and local officials to 
ensure that dangerous intersections are a top priority? As 
well, will you work to ensure that FHWA is doing everything 
possible to respond to local concerns about safety of potential 
dangerous intersections, and to make sure communities can 
mitigate those dangers that exist?
    Ms. Nason. Yes, Senator, that was a horrific crash. I would 
be pleased, if confirmed, to have FHWA work with State and 
local governments regarding dangerous intersections.
    Senator Gillibrand. And I will submit my last two questions 
for the record. One is about using local work force to do large 
infrastructure projects, and the second is to talk about 
extreme weather and climate-related events having a huge impact 
on our transportation infrastructure. I will submit those for 
the record. Will you submit answers for those?
    Ms. Nason. Yes, Senator.
    Senator Gillibrand. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Barrasso. Thank you, Senator Gillibrand. Senator 
Carper.
    Senator Carper. Thanks, Mr. Chairman.
    Mr. Chairman, I ask unanimous consent to submit for the 
record the January 2018 GAO report entitled Highway and Transit 
Projects into the record, as it relates to environmental 
reviews. GAO notes, and had previously reported, that 99 
percent of projects are not being held up by complex NEPA 
reviews. Federal Highway Administration officials expressed 
that categorical exclusions still constitute the vast majority 
of NEPA reviews for highway projects. I ask unanimous consent.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Carper. Thank you, sir.
    A couple of short questions, and I would invite a short 
answer OK?
    Ms. Nason. Yes.
    Senator Carper. Do you believe that a Federal-State 
partnership is a critical cornerstone of the Federal Aid 
Highway Program, and can you commit to continuing and even 
strengthening that cooperation between FHWA and its State, 
local and tribal partners?
    Ms. Nason. I agree it is a critical partnership.
    Senator Carper. Thank you. Here is another hard one. In 
2017, the most recent year for which data are available, nearly 
7,000 non-motorized users were killed. What will you do as FHWA 
to begin dramatically lowering these unacceptable numbers?
    Ms. Nason. Yes, Senator. I think I may not be as quick, but 
I do think there are plenty of places where FHWA----
    Senator Carper. It was a couple of weeks.
    Ms. Nason. From when we talked about pedestrian and cyclist 
safety. But most important in my testimony, having served at 
the department, I know how important it is for modal 
administrators to work together and to share information and 
data. I think FHWA, when focusing on safety, needs to work hand 
in glove with NHTSA, with Federal Motor Carriers, with even 
rail partners, to make sure that we are addressing the problems 
and we are providing good information for solutions for our 
State and local and tribal government partners.
    Senator Carper. A related question. A highway network is a 
crucial means of travel, as we know. However, it is also just 
one component of a much larger, more complex transportation 
system. What are your plans, what would be your plans to 
modernize our highway system in a way that seamlessly 
integrates into modes such as transit, such as rail, aviation, 
water and active transportation?
    Ms. Nason. I think having that multi-modal conversation is 
going to be essential. I trust that this is something this 
committee will be talking about as we move forward on 
legislation.
    One thing we have found at the State Department that is 
quite effective is traveling together. So rather than having a 
visit from diplomatic security and then a visit from the 
Administration and then a visit from Budget, we go together and 
we talk about problems together. We break off into different 
rooms, maybe, but then we come back together to have a more 
comprehensive conversation with all of our partners. That may 
be something that we could explore, I think, at DOT.
    Senator Carper. There is an African proverb that goes 
something like this, if you want to go fast, go alone. If you 
want to go far, travel together.
    Will you support new technologies that can help to improve 
multi-modal connectivity?
    Ms. Nason. Yes.
    Senator Carper. And here is not an easy question. This is a 
hard one. It is a hard one for all of us.
    The 800-pound gorilla in the room on Surface Transportation 
has been and remains how we are going to pay for this stuff. 
And I am not going to put you on the spot and say, how would 
you pay for it. But I would like to ask you to, just to give us 
a couple of ideas of things that you are aware of, I will just 
give you an example, vehicle miles traveled. We have a number 
of States that are involved in a pilot program that stretches 
from ocean to ocean. And we hope to learn a lot from that and 
to maybe be able to move in that direction later in the next 
decade.
    But give us a couple of ideas that you think we should 
consider as we try to figure out how to address this large and 
growing shortfall in funding surface transportation.
    Ms. Nason. I think most importantly, Senator, as Secretary 
Chao has said, all options are on the table right now for the 
Administration. I know some States are participating in the VMT 
pilot program and that might turn out to be very effective and 
provide very good data. Other States are looking at P3s, some 
States have raised the gas tax. We have registration fees.
    I think there are a variety of options, and one thing we 
have been, I know the Secretary has been----
    Senator Carper. Let me just ask you a question. Why do you 
think it is so hard for us to deal with this issue? Why do you 
think it is so hard? States have, you just mentioned, States 
have, Wyoming is among them, a number of States, 30 or so 
States have addressed these issues, about user fees. They have 
found remarkably, the legislators that vote for them, the 
Governors that support them, get re-elected. It is kind of 
amazing.
    But we can't find some, we can't summon the wherewithal to 
do that.
    Ms. Nason. I think part of the challenge is because the 
needs are so diverse. I spend my weekends in Vermont. It is an 
entirely different community than my days in D.C. And the drive 
from D.C. to Connecticut to Vermont changes dramatically as we 
go. In one place I have EZ Pass and there is no problem, and in 
another place, I am on a very narrow two-lane road, and I am 
hoping it has been plowed, because they have different weather 
challenges than we have in D.C.
    So I think because the needs are so different, that is why 
the solutions need to be different.
    Senator Carper. All right. Thanks. Thanks for that.
    I just want to say to Brady and Abby and Alex, I want to 
thank you for showing up today. I know it is hard to miss 
school, but you are good to have done it. I have been watching 
their faces, how they just seem to be reveling in the moment.
    [Laughter.]
    Senator Carper. But I just want to say that your husband 
has kept them in tow. I don't know if my wife and I, when our 
boys were your age, if they would have done this.
    But we are glad you did, and we are glad you didn't make 
any faces or roll your eyes at inappropriate times when your 
mom was talking. Thank you for joining us today.
    Ms. Nason. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    We have a number of letters of support for your nomination. 
The committee has received numerous letters, including letters 
from former Federal Transportation officials, representatives 
of State transportation departments, infrastructure industry 
stakeholders. I am asking unanimous consent to enter this large 
packet of letters into the record.
    And without objection, we will do so.
    There are no more questions from the panel, but members may 
be able to submit written and follow-up questions. I think 
Senator Gillibrand said she had a couple that she was going to 
submit. They can do that by 5 p.m. today. We would ask that you 
try to respond by noon on Friday, February 1st, so we can move 
ahead with your nomination.
    I want to thank you for your time, your testimony. Thanks 
to Secretary Mineta, you stuck through the whole thing. Don't 
you think she did a marvelous job?
    Mr. Mineta. Absolutely.
    Senator Barrasso. And on that, this hearing is adjourned. 
Thank you.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
  

                         <all>
</pre></body></html>
